_..v

®>nV-"

o

fv

IN THE
SUPREME COURT OF THE UNITED STATES

Krishna Mote- Petitioner
vs
(list of parties)
Captain James W. Murtin, Trooper
Barry Brinser, Detective Jack Gill,
Trooper Peter Salerno,Trooper Craig
Rodrigues, Trooper Matthew Tredor,
Trooper Gregory Daley, Trooper Powell
Trooper Yown Respondents
Petition For Writ Of Certiorari
Third Circuit Court Of Appeals
( name of Court last ruled on merits of case)
Petition For Writ Of Certiorari

Krishna Mote
Federal Prison Camp Schuylkill
P. 0. Box 670
Mineraville, Pa. 17954

:: \

<2)

RECEIVED
OCT 2 6 2020
OFFICE OF THE CLERK
SI IPREME COURT, U.S.

• I>
. w

QUESTIONS

(1) Where as if a Civil Action is not connected to the criminal
Action, should the Civil Action be dismissed without Prejudice
or dismissed under the

Fugitive Disentitlement Doctrine, because

of a criminal matter without determining the merits of the Civil
Action?

;

l

j

(2) Where as if the District Court dismiss an CisriluiAotion. vriz.-i^Z
without Prejudice, Can the District Court reopen the GiviInAction
and Dismiss the Civil action witout considering the merits of the
Civil Action?

f(T)?

,1‘f

Table Of Context
(i)

Question Presented

(ii)

List of Parties
Table of Context

.. (iii)

Table of Authorities

.... (iiii)

Statement of case

.. (iiiii)

Reasons for granting Writ

.. (iiiiii)

Appendix (a) (b) below ..

. . . (iiiiiii)

Certificate of Service ..

(iiiiiiii)

Certificate of Compliance

(iiiiiiiii)
(iiiiiiiiii)

Jurisdiction ......................

(iiiiiiiiiii)

Constitutional Provision and Rule Involved

Appendix-A

Index to Appendix

The Middle District Court Order, and The Third Circuit Court Of
Appeals Judgment.
Appendix-B

Index to Appendix

Exhibit-K, Exhibit-E-1, E-2, E-3, Exhibit-B, Exhibit-5-x, Exhibit-c-d
Exhibit-a-8, Exhibit-a-7, and Exhibit (f)

(3)

<i

J-\

TABLE OF AUTHORITIES
Cases
Burke v. Hemlock farms cmty. Assn. (2009) US Dist. LEXIS 100355.
Graybill v. Providence Twp. 140 Pa. commw. 505, 593 A. 2d. 1316,1317
(Pa. commw. ct. 1991)
Graham V. Connor 490 US 386, 394 (1989)
Tennessee v. Garner 471 US 1, 7, 22 (1985)
Heck v. Humphrey 512 US 477 (1994)
Haines v Kerner 404 US 519-520-521 (1972)
Mote v. Murtin 2008 U.S. Dist. LEXIS 52997
Degen v United States 517 US 820, 135 L. ed. 2d. 102 116 S. ct.1777 (1996)
Barnett v YMCA 268 f.3d 614 8th cir. 2001
Walsh v Walsh 221 f.3d 204, 215 first circuit 2000
Magluta v Samples 162 f.3d 662, 664 11th cir. 1998
Jones v Graham 709 f.2d 1457, 1458 11th cir. 1983
Prevot v prevot 59 F.3d 556 562 sixth circuit 1995
Brennan v Kulick 407 F.3d 603 third circuit 2005

Federal Statutes
28 USC §2466
42 USC §1983

(4) j

■it:

STATEMENT OF FACTS

Now comes the Petitioner Krishna Mote that states the following:
The Petitioner claims he was denied his Civil Rights, Fourth Amendment
and his Due process of Law thats guaranteed as an American Citizen
under the Fifth Amendment of the Constitution. The Petitioner will
present facts that the Middle District Court of Pennsylvania Prejudice
the Petitioner by abusing his Civil Action against, Captain James W.
Murtin, Detective Jack Gill, Trooper Peter Salerno, Trooper Barry
Brinser, Trooper Craig Rodrigues, Trooper Matthew Tredor, Trooper
Gregory Daley, Trooper Powell and Trooper Yown. Wherefore the Petitioner
will let the record show the armor of the truth.
The Petitioner has prepared this motion for Writ of
Certiorari without the benefit of professional counsel as a pro-se
prisoner litigant. The Petitioner would invoke the liberal Construction
of pleadings standard under Haines v. Kerner 404 US 519-520-521 (1972).
Now the Petitioner will reflect back to the record.
On January 23, 2007 at about 7:00pm the Petitioner was visiting a
residence located at 178 south first street Lehighton Pennsylvania.
At that date and approximate time, the state police Troopers, Barry
Brinser Trooper Peter Salerno, Trooper Craig Rodrigues, Trooper Matthew
Tredor, Trooper Powell, Trooper Yown, Trooper Gregory Daley, and
Detective Jack Gill, came into the residence, and ordered Petitioner
and other occupants to lie face down on the floor, The S;E.R.T. members
quickly moved to various positions inside the residence, with weapons
drawn and pointed at the occupants. ( the officers didnot have a warrant
for the Petitioner arrest)The Petitioner immediately complied with
this order by the officers without giving resistance. Immediately the
Petitioner was handcuffed with his hands secured behind his back. At
this time and place under the supervision of Detective Jack Gill,Trooper
Barry Brinser, and S.E.R.T. members began the assault. Trooper Powell
proceeded to shoot an unknown weapon into Petitioner, firing twice into
his left side, and then two more shots one to his right hip, and the
other^to Petitioner groin area, (see Appendix-B exhibit-K). The impact
pushed the Petitioner to the floor. And then with the Butt of his rifle
-(5)

Trooper Powell hit the Petitioner on his head over his right eye, causing
blood to flow out of the Petitioner head. The S.E.R.T. members Trooper
Powell, Trooper Yown, Trooper Barry Brinser, Trooper Peter Salerno,
Trooper Craig Rodrigues, Trooper Matthew Tredor, Trooper Gergory Daley,
and Detective Jack Gill proceeded to kick and punch the Petitioner about
his face and Body. Meanwhile the Petitioner was not giving no resistance
and presented no threat to the officers. After the brutal beating the
officers grabbed the Petitioner by his shoulders, Detective Jack Gill
and Trooper Gregory Daley, dragged the Petitioner down a long flight
of stairs to the ground floor. The unprovoked and unjustified actions
of the state Troopers caused the Petitioner extreme physical permanent
damage, to his groin area, leaving the Petitioner without the ability
to produce children. The unprovoked and unjustified actions of Trooper'
Powell, Trooper Yown, Trooper Barry Brinser, Trooper Peter Salerno,
Trooper Craig Rodrigues, Trooper Matthew Tredor, Trooper Gregory Daley
and Detective Jack Gill, who was under the Supervised Authority of
Captain James W. Murtin, that left the Petitioner with two broken ribs,
damage to his right hip bone, a Lacerated spleen, Lacerated Kidney,
Lacerated liver, a cut under his chin, acut over his right eye, two
black eyes, head trama, neck and back damage. The Petitioner received
treatment at Gnaden Huetten Memorial Hospital, (Lehighton Pa.) St. Luke
Hospital in Bethlehem Pa. the Petitioner was in I.C.U. for seven days
(see Appendix-b Exhibit-E-1) The Petitioner continued his treatment
at Southeast Health center in Phila. Pa. located at 800 Washington Ave.
( see Appendix-b Exhibit E-2, E-3) And Thomas Jefferson University
Hospital, Phila. Pa. Greater Phila. Health action Center Phila. Pa.
and Petitioner applied for social Security Disability (for three years)
The Petitioner was examine by doctor Ely Sapol PHD medical Towers BLDg
255 south 17th street suit 1601 Phila. Pa. 19103 (see appendix-b exhibit-B
The Petitioner beenbsaffering for 13 years (which he has been incarcerated
for 10 years) with Posttraumatic Stress disorder, he suffers from anxiety
attacks that feels like cold needles running through his vanes, Also
nightmares of the State Troopers kicking him in the face and body punching
him in the face spiting on him and calling him the N-Word. citing Burke
V. Hemlock farms cmty. Assn.(2009) US Dist. LEXIS 100355, 3; cv-07-1186
Third Circuit. An Opinion by Honorable Thomas L. Vanaskie "quote" as
explained in light of Graybill v. Providence Twp. 140 Pa. commw. 505
593 A. 2d. 1316, 1317 (Pa. commw. ct. 1991) The term permanent as here

Or

(5) 2 ‘ 1

y

.*v'+ '

jssed, has reference not alone to the Character of the structure or
thing which produces the alleged injury, but also the character of
the injury produced by it. In li^ht of Graham v. Connor 490 US 386,
394 (1989) An Opinion by Supreme Court Justices, Rehnquist Ch. J. joined
by white, Stevens O'Connor and late Honorable Scalia, and Kennedy JJ.
Quote" it was held that all claims brought under §1983 in which it was
alleged that law enforcement officers used excessive force deadly or
not- in the course of an arrest, investigatory stop or other seizure
of a free citizen were properly analyzed under Amendment's5-objective
reasonableness standard rather than under the more generalized standard
of substantive due process pursuant to the due process clause of the
Fourth Amendment, because the Fourth Amendment provided an explicit
textual source of Federal Constitutional protection against such physie>.ll/
cally intrusive Governmental conduct and (2) under the Fourth Amendment
standard, See also Tennessee v. Garner 471 US 1 -7,22^(1985)
( Tennessee) Quote" finding that a claim of excessive force to effect
arrest is analyzed under the Fourth Amendment generally excessive force
claims brought under the Fourth Amendment are not barred by the favorable
termination rule articulated in Heck v Humphrey 512 US 477 (1994).
, t
Congress seized this opening when it enacted the Civil
Asset. Forfeiture Reform Act of 2000 (C.A.F.R.A.) Pub. L. No. 106
185, 114 stat. 202 (2000). Section 14 of C.A.F.R.A. created the
fugitive disentitlement statute which provides, as amended. \.(a)
A judicial officer may disallow a person from using the resources
of the court of the United States in furtherance of a claim in any
related civil forfeiture action or a claim in third party proceedings
in any related criminal forfeiture action upon a finding that such
person (1) after notice or Knowledge of the fact that a warrant or
process has been issued for his apprehension, in order to avoid
criminal prosecution (A) purposely leaves the Jurisdiction of the
United States, (B) declines to enter or reenter the United States,
to submit to its jurisdiction or, (C) otherwise evades the jurisdiction
of the Court in which a criminal case is pending against the person
and (2) is not confined or held in custody in any other jurisdiction
(B) Subsection (a) may be applied to a claim filed by a corporation
if any majority shareholder or individual filing the claim on behalf
of the corporation is a person to whom subsection (a) applies 28 USC
§2466.
(-5) 3 ‘

@'n August 27 2007 the Petitioner attorneys Brian E. Appel, and Stephen
M. Wagner filed the Petitioner Civil Action against Captain James
Murtin and unknown state troopers at that time. The Petitioner would
like to state that there's only one date that the civil action was
filed" August 27, 2007 and one date that the civil action was ordered
February 2009. The reason for this statement is because the District
Court Judge MarianiJs order (on February 20, 2020 civil no: 3:20-cv-92)
to dismiss the Petitioner complaint "Quote "all Plaintiff claims arising
under 42 USC §1983 are hereby Dismissed with prejudice see case ho:
4:07-cv-1571. Only Plaintiff's pendent state claims were dismissed
in that action without prejudice, (see Appendix-b exhibit 5-x) Also
on January 23, 2020 Magistrate Judge Carlson stated in his report and
recommenddation (see Appendix-b exhibit cSd) thattthe Petitioner filed
a law suit quote" challenging this use of force in August 2007, Mote
v. Murtin civil no: 4:07-cv-1571, Quote this case was dismissed in July
of 2008, nearly 12 years ago. Mote then lodged an untimely Appeal
which was dismissed by the Court of Appeals in February of 2009. This
is evdence that shows emblematical abuse of power to cover up the
District Court arbitrary prejudice, by dismissing the Petitioner action,.
Without prejudice (in February 2009) under the Fugitive Disentitlement
Doctrine. In Degen v. United States, citing 517 US 820 135 L. ed 2d.102
116 S. ct. 1777 (1996). An Opinion by Honorable Justice Kennedy J.
expressing the unanimous view of the court it was held that the fugitive
disentitlement doctrine under which the Supreme court had sustained
the authority of an appellate court to dismiss an appeal or writ in a
criminal matter where the party seeking relief became a fugitive would
not be extended to allow the district Court to strike the owner's filing
and enter summary judgment against the owner because, (1) there was no
risk of delay or frustration in determining the merits of the forfeiture
(2) the District Court
claims or in enforcing the resulting judgement
had the means to resolve dilemmas related to the Owner's and (3)
disentitlement was too blunt an instrument for advancing either the
interest of redressing the indignity visited upon the District Court
by the Owner's absence from the criminal prosecution or the interest
in deterring flight from criminal prosecution by the Owner's and others.
Now the Petitioner will reflect back to the record. On January 29, 2008
Counsel for Captain James W. Murtin submited a motion for enlargement
of time in support his motion to dismiss pursuant to the fugitive

(50 4/

5

j 0issnti11 GniGnt Doctrine. (sgg Appendix-b exhibit-a-7)• The Petitioner
submited an answer to Captain motion to dismiss pursuant to the Fugitive
Disentitlement Doctrine. On January 25, 2008. (see Appendix-B exhibit
a-8) This is evidence to show that the Petitioner was incontact with
the Middle district Court during his Civil action. Also on July
11, 2008 during Judge Jones Opinion, giving the procedural history
let the record show that the Petitioner filed several motions for
extensions of time on page one of order on July 11, 2008 (see Appendix
-b Exhibit(f). Citing Barnett v. YMCA 268 f.3d 614 eighth circuit 2001.
In Barrnett, An opinion by Honorable Judge Beam"Quote" we adopt the
reason of the Eleventh and First circuits regarding dismissal of Civil
actions on fugitive disentitlement grounds involving cases where the
fugitive is the Plaintiff. The fugitive Staitiisj >must have a connection
to the civil action, and the dismissal must animate the concerns und? .1,
underlying the fugitive disentitlement doctrine, see Walsh v. Walsh
221 f.3d 204, 215(lst. cir. 2000) citing Magluta v Samples 162 f.3d 662
664 (11th cir. 1998). Muglute an Opinion by Honorable Judge Birch and
Barkett and Senior District Judge Hancock, state"The district court's
power to dismiss a cause is an inherent aspect of its authority to
enforce its orders and insure prompt disposition of lawsuits, Jones v
Graham 709 f.2d 1457, 1458 (11th cir. 1983) The standard of review on
Appeal from the dismissal of a lawsuit on fugitive disentitlement
... groundsels abuse of discretion, see also Prevot v Prevot 59 f.3d 556
562 (6th cir. 1995) (discussing equitable power of court to disentitle
fugitives. Therefore, the issue before the court is whether the dismissal
of a civil action because of the plaintiffs status as a fugitive in
an unrelated criminal matter Constitutes an abuse of discretion.
©n February, 2009 the Petitioner civil action was dismissed without
prejudice according to the recommendation by Magistrate Judge Blewitt
on July 11, 2008 (see Appendix-b exhibit-f page 3) pursuant to rule
4(m). When the Petitioner action was dismissed without prejudice under
the fugitive disentitlement doctrine the civil action was unable.to
amend nor appealable, citing Brennan v Kulick 407 f.3d 603 third cir.
2005. In Brennan an Opinion by Honorable Judge Cowen" Quote"we further
noted that orders which dismiss a complaint without prejudice with
leave to amend are not deemed final until either the time for amendment
has expired or the Petitioner has announced its intention to stand on its ~on
Gomplaint, until then the dismissal is neither final nor Appealable
because the deficiency can be corrected by the Petitioner without
(5)-5-----j

Jl

» /

effecting the cause of action. If the District Court cannot produce
any documents of the Petitioner continuing his litigation after'his
civil action was dismissed without prejudice then let the record
show that the district Court commited afoul against the Petitioner
civil action.TThe Petitioner also would like to bring to this Honorable
Court atention is the Petitioner never left the Country or the State
of Pennsylvania See Appendix-B exhibit-E. This is another example that
the Petitioner where abouts was known by the Middle District Court, and
the Government Authoritys for three years. Wherefore the evidence
show that the fugitive disentitlement Doctrine that was used to dismiss
the Petitioner civil action without prejudice is in Question.

cM.

(5L6
__ \

Reasons For Granting Certiorari

The Petitioner pray that this Honorable Court will take inconsideration
that the Pennsylvania State Troopers violated the Petitioner's rights
<

’

...

'

.

\

.

under the Fourty Amendment and that a seizure occurred and it' was
unreasonable under"the circumstances, causing the Petitioner permanent
damage to his body as well as mental damage. Furthermore the District
Court made a clear error on the record by dismissing the Petitioner
civil Action without prejudice under the Fugitive Disentitlement Doctrine
when the Fugitive disentitlement didnot apply. This abuse of discretion
prejudice the Petitioner by foreclosing the Petitioner civil rights
action, and violated the Petitoner

Due Process of Law under the Fifth

Amendment. The Petitioner is asking this Honorable Court to Remand
this matter back to the District Court and have the Defendants answer
the Complaint.

:.8T"7

